U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

January 21, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Folajtar v. Rosen
S. Ct. No. 20-812

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 11,
2020. The government’s response is now due, after one extension, on February 15, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 17, 2021 within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

ELIZABETH B. PRELOGAR
Acting Solicitor General

cc:

See Attached Service List

20-0812
FOLAJTAR, LISA M.
WILLIAM P. BARR, ATTORNEY GENERAL

JACK PARK
616-B GREEN STREET
GAINESVILLE, GA 30501
GAINESVILLE, GA 30501
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
SAM SPIEGELMAN
CATO INSTITUTE
1000 MASS. AVE. NW
WASHINGTON, DC 20001
202-789-5242
SSPIEGELMAN@CATO.ORG
DAVID H. THOMPSON
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
DTHOMPSON@COOPERKIRK.COM
CODY J. WISNIEWSKI
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD, CO 80227
303-292-2021
CODY@MSLEGAL.ORG

